No. 20-139
BRYANT KAZUYOSHI IWAI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief for Petitioner was sent via
Federal Express to the U.S. Supreme Court and a
copy was sent to counsel for the Respondent by
Federal Express on December 8, 2020 to the address
below:
Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
/s/ Kelsi Brown Corkran
Counsel of Record

